In the

Supreme Court of the United States
___________
MICHAEL DEWAYNE VICKERS,
PETITIONER,
V.
UNITED STATES OF AMERICA,
RESPONDENT.
___________________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
___________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
___________
FIFTH CIRCUIT OPINION VACATING § 2255 RELIEF ........................................ 1a
FIFTH CIRCUIT JUDGMENT ................................................................................. 12a
FIFTH CIRCUIT ORDER DENYING REHEARING .............................................. 13a
FIFTH CIRCUIT ORDER AUTHORIZING SUCCESSIVE § 2255
MOTION .................................................................................................................... 15a
MAGISTRATE JUDGE’S RECOMMENDATION TO GRANT
AUTHORIZED § 2255 MOTION AND TO VACATE SENTENCE ......................... 17a
DISTRICT COURT ORDER OVERRULING OBJECTIONS AND
ADOPTING MAGISTRATE’S RECOMMENDATION............................................. 31a
DISTRICT COURT CIVIL JUDGMENT VACATING SENTENCE ....................... 35a
AMENDED CRIMINAL JUDGMENT ..................................................................... 36a
FIFTH CIRCUIT OPINION ON DIRECT APPEAL ................................................ 43a
ORIGINAL CRIMINAL JUDGMENT OF CONVICTION AND
SENTENCE ............................................................................................................... 57a
FIFTH CIRCUIT ORDER STAYING MANDATE ................................................... 64a

Case: 18-10940

Document: 00515500997

Page: 1

Date Filed: 07/23/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-10940

FILED
July 23, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellant
v.
MICHAEL DEWAYNE VICKERS,
Defendant - Appellee

Appeal from the United States District Court
for the Northern District of Texas
Before SMITH, HIGGINSON, and ENGELHARDT, Circuit Judges.
STEPHEN A. HIGGINSON, Circuit Judge:
The government appeals the district court’s grant of Michael Dewayne
Vickers’s motion under 28 U.S.C. § 2255 and its subsequent judgment
resentencing Vickers to 98 months in prison.

The district court vacated

Vickers’s original sentence because it found that his Texas conviction for
murder no longer qualified as a predicate offense for a career offender sentence
enhancement under the Armed Career Criminal Act (ACCA) after Johnson v.
United States, 135 S. Ct. 2551 (2015). Applying the categorical approach, we
hold that the statute under which Vickers was convicted meets the ACCA’s
definition of a violent felony and VACATE the judgment below.

Vickers v. United States
Petition Appendix

1a

Case: 18-10940

Document: 00515500997

Page: 2

Date Filed: 07/23/2020

I.
On July 25, 2006, Vickers was charged with being a felon in possession
of a firearm in violation of 18 U.S.C. § 922(g)(1). He proceeded to trial and was
convicted by a jury. In anticipation of sentencing, the probation officer
prepared a presentence investigation report (PSR), in which the officer
assigned Vickers a base offense level of 33 under the United States Sentencing
Guidelines after concluding that he was an ACCA career offender. The PSR
relied on Vickers’s prior Texas felony convictions for murder, burglary of a
habitation, and unlawful delivery of a controlled substance as predicate
offenses for the career offender enhancement. On July 5, 2007, the district
court sentenced Vickers to 190 months in prison, which the court then adjusted
to 168 months to give him credit for 22 months of time served in Texas state
prisons for a related state offense. This court affirmed the conviction and
sentence on direct appeal. See United States v. Vickers, 540 F.3d 356, 359 (5th
Cir. 2008).
On December 8, 2015, Vickers filed the instant § 2255 motion alleging
that his prior convictions no longer qualify as predicate offenses under the
ACCA in light of Johnson. The district court appointed counsel and allowed
Vickers to seek authorization from this court to pursue a successive § 2555
motion. This court granted authorization for Vickers to challenge his sentence
based on his argument that his Texas murder conviction no longer qualifies as
a predicate offense but denied his request to challenge his sentence based on
the argument that his Texas burglary conviction no longer qualifies.
Vickers filed an amended § 2255 motion in the district court. Relying on
our court’s case law distinguishing between direct and indirect force, which has
since been overruled by United States v. Reyes-Contreras, 910 F.3d 169, 187
(5th Cir. 2018) (en banc), the magistrate judge recommended granting the

Vickers v. United States
Petition Appendix

2a

Case: 18-10940

Document: 00515500997

Page: 3

Date Filed: 07/23/2020

motion. The government filed objections to the magistrate judge’s findings and
recommendations. The district court overruled the objections, adopted the
magistrate judge’s conclusions, and vacated Vickers’s sentence. The court held
a new sentencing hearing on June 27, 2018.
The government timely appealed from the criminal judgment after
Vickers was resentenced.
II.
A.

Jurisdiction to Review the Court’s § 2255 Order

As an initial matter, Vickers argues that the government did not
properly appeal the district court’s order granting Vickers’s § 2255 motion
because it filed its notice of appeal from the criminal judgment after his
resentencing rather than from the district court order granting the motion and
vacating his original sentence. The district court first entered a judgment
vacating Vickers’s original sentence on June 5, 2018. It then resentenced
Vickers and entered another judgment on June 27, 2018. The government filed
its notice of appeal on July 17, 2018. Vickers asserts that, because the notice
of appeal is timely only as to the second judgment and was filed in the criminal
docket, it applies only to the resentencing, meaning that the government
cannot challenge the district court’s order vacating his original sentence.
We disagree. The government’s notice of appeal refers to both the
criminal and civil cases, and it appeals from “the final judgment and sentence
imposed after granting Section 2255 relief.” Further, the government could not
have appealed directly from the civil judgment vacating Vickers’s sentence. In
a § 2255 case, when “what was appropriately asked and appropriately granted
was the resentencing of the petitioner[], it is obvious that there could be no
final disposition of the § 2255 proceedings until the petitioner[] [has been]
resentenced.” Andrews v. United States, 373 U.S. 334, 340 (1963); see also

Vickers v. United States
Petition Appendix

3a

Case: 18-10940

Document: 00515500997

Page: 4

Date Filed: 07/23/2020

United States v. Hayes, 532 F.3d 349, 352 (5th Cir. 2008) (explaining that
Andrews held that “when a § 2255 petitioner is granted a resentencing, the
government may not appeal that finding until after the resentencing occurs”).
Thus, the government had no choice but to wait until Vickers was resentenced
to appeal the district court’s order granting the § 2255 motion. See 28 U.S.C. §
1291 (granting this court jurisdiction over appeals from “final decisions”).
Vickers does not cite a single instance in which this court has required
the government to file separate notices of appeal from the criminal and civil
judgments in order to challenge the grounds for granting a § 2255 motion.
Indeed, this court has considered both a revised criminal sentence and the
issues raised in the § 2255 motion leading to the revised sentence based on a
single notice of appeal filed after the defendant was resentenced. See Hayes,
532 F.3d at 352–53. Accordingly, the government’s notice of appeal was proper,
and we may review both the order vacating the original conviction and the
district court’s new sentence.
B.

Vickers’s Texas Murder Conviction

The government seeks reversal of the district court’s holding that
Vickers’s Texas murder conviction does not qualify as a violent felony. Because
the government properly objected below, we review the district court’s order de
novo. United States v. Fuller, 453 F.3d 274, 278 (5th Cir. 2006). We agree with
the government that, in light of our 2018 en banc decision in Reyes-Contreras,
which was decided while this appeal was pending, the district court’s holding
no longer reflects the law of this circuit.
Title 18 U.S.C. § 922(g)(1), the federal statute under which Vickers was
convicted, provides, “[i]t shall be unlawful for any person . . . who has been
convicted in any court of, a crime punishable by imprisonment for a term
exceeding one year . . . to ship or transport in interstate or foreign commerce,
or possess in or affecting commerce, any firearm or ammunition.” Id. §

Vickers v. United States
Petition Appendix

4a

Case: 18-10940

Document: 00515500997

Page: 5

Date Filed: 07/23/2020

922(g)(1). A person with three qualifying convictions “for a violent felony or a
serious drug offense, or both, committed on occasions different from one
another” who violates § 922(g) is subject to a mandatory minimum sentence of
fifteen years in prison. 18 U.S.C. § 924(e)(1). Vickers received this sentencing
enhancement because he was previously convicted of the Texas state crimes of
murder, burglary of a habitation, and delivery of a controlled substance.
To determine whether a crime falls within the federal definition of a
violent felony, we employ the categorical approach. Mathis v. United States,
136 S. Ct. 2243, 2248 (2016). Under the categorical approach, courts “‘look only
to the statutory definitions’—i.e., the elements—of [an offense], and not ‘to the
particular facts underlying those convictions.’” Descamps v. United States, 570
U.S. 254, 261 (2013) (quoting Taylor v. United States, 495 U.S. 575, 600 (1990)).
“‘Elements’ are the ‘constituent parts’ of a crime’s legal definition—the things
the ‘prosecution must prove to sustain a conviction.’” Mathis, 136 S. Ct. at 2248
(quoting Black’s Law Dictionary 634 (10th ed. 2014)). “[T]he prior crime
qualifies as an ACCA predicate if, but only if, its elements are the same as, or
narrower than, those of the generic offense.” Id. at 2247. The “generic offense”
is “the offense as commonly understood,” provided in the ACCA. Id. “[I]f the
crime of conviction covers any more conduct than the generic offense, then it is
not an ACCA [predicate]—even if the defendant’s actual conduct (i.e., the facts
of the crime) fits within the generic offense’s boundaries.” Id. at 2248.
To prevail, a defendant must show that the state offense is broader than
the generic federal offense, and “[h]e must also show ‘a realistic probability,
not a theoretical possibility, that the State would apply its statute to conduct
that falls outside the generic definition of the crime.’” United States v. CastilloRivera, 853 F.3d 218, 222 (5th Cir. 2017) (en banc) (quoting Gonzales v.
Duenas-Alvarez, 549 U.S. 183, 193 (2007)). Merely pointing to plausible
interpretations of the statutory text in a vacuum is not enough. Id. Thus, a

Vickers v. United States
Petition Appendix

5a

Case: 18-10940

Document: 00515500997

Page: 6

Date Filed: 07/23/2020

defendant must point to case law from the relevant state courts actually
applying the state law in a manner that is broader than the federal definition.
Id. at 222–23.
A “violent felony” under the ACCA includes any felony that “has as an
element the use, attempted use, or threatened use of physical force against the
person of another.” 1 18 U.S.C. § 924(e)(2)(B)(i). The Supreme Court has defined
the term “physical force” as “violent force—that is, force capable of causing
physical pain or injury to another person.” Johnson v. United States, 559 U.S.
133, 140 (2010) (emphasis omitted). Texas Penal Code § 19.02 provides that a
person commits murder when he:
(1) intentionally or knowingly causes the death of an individual;
(2) intends to cause serious bodily injury and commits an act
clearly dangerous to human life that causes the death of an
individual; or
(3) commits or attempts to commit a felony, other than
manslaughter, and in the course of and in furtherance of the
commission or attempt, or in immediate flight from the
commission or attempt, he commits or attempts to commit an act
clearly dangerous to human life that causes the death of an
individual.
Tex. Penal Code Ann. § 19.02. 2 Vickers argues that felony murder, as defined
in § 19.02(3), which occurs when a person commits “an act clearly dangerous

In Johnson, the Supreme Court held that the so-called “residual clause” of the
definition, which includes any crime that “otherwise involves conduct that presents a serious
potential risk of physical injury to another,” is unconstitutionally vague. 135 S. Ct. at 2557.
To prevail, therefore, the government now must argue that Texas murder qualifies as a
violent felony under § 924(e)(2)(B)(i), quoted above, known as the force clause. See United
States v. Montgomery, 402 F.3d 482, 486 (5th Cir. 2005) (defining this clause as the “Force
Clause”).
2
“[T]his court examines the statutory elements as they existed at the time the
defendant committed the offense,” United States v. Clay, 921 F.3d 550, 557 n.2 (5th Cir.
2019), as revised (Apr. 25, 2019), which for Vickers was 1982. Texas Penal Code § 19.02 was
the same in 1982 as it is today, except that in 1982 the statute referred to “voluntary or
1

Vickers v. United States
Petition Appendix

6a

Case: 18-10940

Document: 00515500997

Page: 7

Date Filed: 07/23/2020

to human life that causes the death of an individual,” does not have as an
element the use of physical force against another person. The district court
agreed because it found that felony murder involves only indirect force, which,
at that time, was outside of the federal definition of “physical force.”
In Reyes-Contreras, our en banc court announced an expanded reading
of the term “force” for an identically worded federal definition appearing in §
2L1.2 of the Sentencing Guidelines. 910 F.3d at 182. We held that “for purposes
of identifying a conviction as a [crime of violence], there is no valid distinction
between direct and indirect force.” Id. Thus, actions such as assisting in suicide
are crimes of violence under Reyes-Contreras. Id. We also clarified that, based
on Voisine v. United States, 136 S. Ct. 2272 (2016), “the ‘use of force’ . . . can
include knowing or reckless conduct.” Reyes-Contreras, 910 F.3d at 183.
Finally, we held that bodily contact is not required to show a use of force,
meaning that causing injury or creating a risk of injury can be a use of force.
Id. at 183–84. Therefore, under the broad conception of force described in
Reyes-Contreras, even felony murder involves “physical force against the
person of another.” 18 U.S.C. § 924(e)(2)(B)(i).
Vickers argues that, despite Reyes-Contreras, felony murder still does
not involve the “use” of force because the term “use” requires an active and
knowing application of force, and a person could be convicted of felony murder
for applications of force that are accidental or unknowing. The Supreme Court
has held that knowing or intentional applications of force qualify as uses of
force. United States v. Castleman, 572 U.S. 157, 169–70 (2014). It has also held
that reckless conduct can be a use of force. Reyes-Contreras, 910 F.3d at 183;
Voisine, 136 S. Ct. at 2279 (“[T]he word ‘use’ does not exclude from § 922(g)(9)’s

involuntary manslaughter” in the definition of felony murder. See Ex parte Easter, 615
S.W.2d 719, 720 (Tex. Crim. App. 1981) (quoting the 1981 version of the statute).

Vickers v. United States
Petition Appendix

7a

Case: 18-10940

Document: 00515500997

Page: 8

Date Filed: 07/23/2020

compass an act of force carried out in conscious disregard of its substantial risk
of causing harm.”). Conversely, negligent or merely accidental conduct does not
qualify as a use of force. Leocal v. Ashcroft, 543 U.S. 1, 9 (2004). A person uses
force only when he or she has “the understanding that [the action] is
substantially likely to [cause harm].” Voisine, 136 S. Ct. at 2279; see also
United States v. Aguilar-Alonzo, 944 F.3d 544, 550 (5th Cir. 2019) (“In a variety
of criminal statutory contexts, we have consistently interpreted the ordinary
and natural meaning of the verb ‘use’ to require active employment of
something, as has the Supreme Court.”).
Vickers relies on Lomax v. State, 233 S.W.3d 302 (Tex. Crim. App. 2007)
to argue that felony murder includes negligent or accidental uses of force. In
Lomax, the Texas Court of Criminal Appeals held that the felony murder
statute evinces a “clear legislative intent to plainly dispense with a culpable
mental state” based on the “historical purpose of the felony-murder rule . . . to
make a person guilty of an ‘unintentional’ murder when he causes another
person’s death during the commission of some type of a felony.” Id. at 305.
Thus, under Lomax, Vickers contends that Texas felony murder covers
negligent or accidental conduct that would not be a “use” of force. See Leocal,
543 U.S. at 9.
Lomax is inapplicable here because it was decided in 2007, more than 20
years after Vickers’s conviction. We consider only the state law as it existed at
the time of Vickers’s 1982 murder conviction. The Supreme Court has held that
“[t]he only way to answer th[e] backward-looking question” of whether a
defendant’s prior conviction is a qualifying predicate under the ACCA “is to
consult the law that applied at the time of that conviction.” McNeill v. United
States, 563 U.S. at 820; see also Descamps, 570 U.S. at 295 n.5 (Alito, J.,
dissenting) (“The majority suggests that California law is ambiguous as to this
requirement, but any confusion appears to have arisen after petitioner’s 1978

Vickers v. United States
Petition Appendix

8a

Case: 18-10940

Document: 00515500997

Page: 9

Date Filed: 07/23/2020

conviction and is therefore irrelevant for purposes of this case.” (citation
omitted)). In McNeill, the defendant argued that the court should apply the
state law as it existed at the time of the federal sentencing, and the Supreme
Court rejected this approach because that “argument overlooks the fact that
ACCA is concerned with convictions that have already occurred.” 563 U.S. at
820. Thus, we must apply the state court interpretation at the time of Vickers’s
conviction.
The Texas Court of Criminal Appeals’ interpretation of Texas’s felony
murder statute at the time of Vickers’s conviction is provided by Rodriquez v.
State, 548 S.W.2d 26 (Tex. Crim. App. 1977), in which the Court of Criminal
Appeals held that “because § 19.02(a)(3) is silent as to, and does not plainly
dispense with, the culpable mental state required for the underlying felony
committed or attempted . . . the culpable mental state shall . . . be one of intent,
knowledge, or recklessness.” Id. at 28. Thus, until 2007, when Lomax changed
the prevailing standard, felony murder in Texas required a mental state of
recklessness or higher, meaning that all defendants convicted under this
statute would have taken active steps to “use” physical force—as required by
the ACCA federal definition. Aguilar-Alonzo, 944 F.3d at 550 (explaining the
federal definition of “use”). Indeed, the Lomax opinion states explicitly that it
is announcing a change in the law: “we decide to overrule . . . the holding in
Rodriquez that a culpable mental state is required for ‘the act of murder’ in a
felony-murder prosecution and that the mental state of the underlying felony
supplies this culpable mental state.” 233 S.W.3d at 307. The Court of Criminal
Appeals makes clear that before this change, Rodriquez was the prevailing law.
For these reasons, Vickers’s Texas murder conviction qualifies as a
violent felony for purposes of the career offender enhancement.

Vickers v. United States
Petition Appendix

9a

Case: 18-10940

Document: 00515500997

Page: 10

Date Filed: 07/23/2020

Vickers’s Burglary and Delivery of a Controlled Substance
C.
Convictions
Finally, Vickers contends that even if his murder conviction was a
violent felony, his convictions for burglary and delivery of a controlled
substance do not qualify as predicate offenses. We decline to consider these
arguments because Vickers did not receive authorization to include them in a
successive § 2255 petition.
Vickers had to apply for authorization to file a successive § 2255 motion
raising the claims made in this appeal. He requested authorization to
challenge his sentence enhancement based on both his Texas murder and
Texas burglary convictions. This court authorized the challenge only as it
related to his Texas murder conviction; it denied authorization to argue that
his Texas burglary conviction did not qualify as a predicate offense. In his
amended filing before the district court after counsel was appointed, Vickers
argued only that his murder conviction was not a violent felony. Thus, the
district court had no opportunity to consider whether Vickers’s other
convictions qualify as predicate offenses, and indeed it had no subject matter
jurisdiction to consider such unauthorized successive claims even if Vickers
had raised them. Crone v. Cockrell, 324 F.3d 833, 838 (5th Cir. 2003) (holding
that the district court “did not have subject matter jurisdiction over Crone’s
[successive § 2255] application because Crone did not obtain an order from this
Court authorizing the district court to consider the successive application”).
Vickers cannot now ask us to consider his challenges to his other convictions
in the first instance. United States v. Wiese, 896 F.3d 720, 723 (5th Cir. 2018),
as revised (Aug. 14, 2018) (“If the district court did not have jurisdiction to
reach the merits, naturally, we cannot reach the merits on appeal.”); see also
28 U.S.C. § 2244(b)(4) (requiring the dismissal of any claim presented in a

Vickers v. United States
Petition Appendix

10a

Case: 18-10940

Document: 00515500997

Page: 11

Date Filed: 07/23/2020

second or successive § 2255 petition “unless the applicant shows that the claim
satisfies the requirements of this section”).
III.
Because Vickers’s Texas murder conviction qualifies as a violent felony
under the ACCA, we VACATE the judgment of the district court and REMAND
for further proceedings consistent with this opinion.

Vickers v. United States
Petition Appendix

11a

Case: 18-10940

Document: 00515502677

Page: 1

Date Filed: 07/23/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 18-10940
_______________________

United States Court of Appeals
Fifth Circuit

FILED
July 23, 2020
Lyle W. Cayce
Clerk

D.C. Docket No. 3:06-CR-229-1
UNITED STATES OF AMERICA,
Plaintiff - Appellant
v.
MICHAEL DEWAYNE VICKERS,
Defendant - Appellee
Appeal from the United States District Court
for the Northern District of Texas
Before SMITH, HIGGINSON, and ENGELHARDT, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
vacated, and the cause is remanded to the District Court for further
proceedings in accordance with the opinion of this Court.

Vickers v. United States
Petition Appendix

12a

Case: 18-10940

Document: 00515574678

Page: 1

Date Filed: 09/22/2020

United States Court of Appeals
for the Fifth Circuit
No. 18-10940
United States of America,
Plaintiff—Appellant,
versus
Michael Dewayne Vickers,
Defendant—Appellee.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:15-CV-3912
ON PETITION FOR REHEARING EN BANC
(Opinion 7/23/2020 , 5 Cir.,
)

,

F.3d

Before Smith, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:
( √ ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No
member of the panel nor judge in regular active service of the court
having requested that the court be polled on Rehearing En Banc

Vickers v. United States
Petition Appendix

13a

Case: 18-10940

Document: 00515574678

Page: 2

Date Filed: 09/22/2020

18-10940

(Fed. R. App. P. and 5TH Cir. R. 35), the Petition for Rehearing
En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. and 5TH
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

2
Vickers v. United States
Petition Appendix

14a

Case: 16-10509

Document: 00513524688

Page: 1

Date Filed: 05/27/2016

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-10509

In re: MICHAEL DEWAYNE VICKERS,

A True Copy
Certified order issued May 27, 2016

Movant.
Clerk, U.S. Court of Appeals, Fifth Circuit

Motion for an Order Authorizing
the United States District Court
for the Northern District of Texas
to Consider a Successive 28 U.S.C. § 2255 motion

Before HIGGINBOTHAM, SMITH, and OWEN, Circuit Judges.
PER CURIAM:
Michael Vickers, federal prisoner # 35401-177, moves for authorization
to file a successive 28 U.S.C. § 2255 motion challenging the enhancement of
his sentence for possession of a firearm by a felon under the Armed Career
Criminal Act (“ACCA”). See 18 U.S.C. § 924(e)(2)(B)(ii); see United States v.
Vickers, 540 F.3d 356, 363 (5th Cir. 2008) (noting that Vickers’s prior convictions of murder, burglary of a habitation, and unlawful delivery of a controlled
substance were used as predicate offenses under § 924(e)). Vickers contends
that Johnson v. United States, 135 S. Ct. 2551 (2015), which invalidated the
residual clause of the ACCA as unconstitutionally vague, established a new

Vickers v. United States
Petition Appendix

15a

Case: 16-10509

Document: 00513524688

Page: 2

Date Filed: 05/27/2016

rule of constitutional law made retroactive to cases on collateral review. See
§ 2255(h)(2). If granted authorization, Vickers would challenge the enhancement based on his convictions of burglary of a habitation and murder.
Because Vickers’s conviction of burglary of a habitation is an enumerated offense under United States v. Herrold, 813 F.3d 595, 597–98 (5th Cir.
2016), Johnson does not provide a basis for authorization as to that conviction.
Consequently, the motion for authorization is DENIED in part.
Vickers has made “a sufficient showing of possible merit to warrant a
fuller exploration by the district court” with regard to his conviction of murder.
Reyes-Requena v. United States, 243 F.3d 893, 899 (5th Cir. 2001) (internal
quotation marks and citation omitted); see Welch v. United States, 136 S. Ct.
1257, 1265, 1268 (2016).

Accordingly, the motion for authorization is

GRANTED in part as to that conviction.
Our grant of authorization is tentative in that the district court must
dismiss the § 2255 motion without reaching the merits if it determines that
Vickers has failed to make the showing required to file such an application.
See 28 U.S.C. § 2244(b)(4); Reyes-Requena, 243 F.3d at 899. We express no
opinion as to what decisions the district court should make.

Vickers v. United States
Petition Appendix

16a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 1 of 15 PageID 96

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
MICHAEL DEWAYNE VICKERS,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)

No. 3:15-CV-3912-B-BH
No. 3:06-CR-0229-B
Referred to U.S. Magistrate Judge

FINDINGS, CONCLUSIONS, AND RECOMMENDATION
By Special Order 3-251, this habeas case has been automatically referred for findings,
conclusions, and recommendation. Based on the relevant findings and applicable law, the amended
Motion Under 28 U.S.C. § 2255, to Vacate, Set Aside, or Correct Sentence by a Person in Federal
Custody should be GRANTED, the sentence should be vacated, and the movant should be resentenced.
I. BACKGROUND
Michael Dewayne Vickers (Movant) challenges his federal conviction and sentence in Cause
No. 3:06-CR-229-B. The respondent is the United States of America (Government).
By indictment filed on July 25, 2006, Movant was charged with being a felon in possession
of a firearm in violation of 18 U.S.C. §§ 922(g)(1), 924(e)(1). (See doc. 1.)1 He pleaded not guilty
and was convicted by a jury. (See doc. 52.) On March 22, 2007, the United States Probation Office
(USPO) filed a Presentence Report (PSR) that applied the 2006 United States Sentencing Guidelines
Manual (USSG). (See doc. 61 at 4, ¶ 14.) It found that Movant was an armed career criminal
because his federal conviction under § 924(e) subjected him to an enhanced sentence based on his
prior violent felony convictions for murder, burglary of a habitation, and unlawful delivery of a

1

Unless otherwise indicated, all document numbers refer to the docket number assigned in the underlying criminal
action, 3:06-CR-229-B.

18-10940.914

Vickers v. United States
Petition Appendix

17a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 2 of 15 PageID 97

controlled substance, resulting in an offense level of 33. (See id. at 4-5, ¶¶ 10, 15, 16.) With a
criminal history category of four, the resulting guideline range was 188-235 months. (See id. at 12,
¶ 56.) On July 5, 2007, Movant was sentenced to 190 months’ imprisonment, which was then
adjusted to 168 months to account for 22 months he had served on his related state case that would
not be credited by the Bureau of Prisons. (See doc. 52.) The judgment was affirmed on appeal. (See
doc. 64); United States v. Vickers, No. 07-10767 (5th Cir. Aug. 12, 2008).
Movant filed a motion to vacate, set aside or correct his sentence under 28 U.S.C. § 2255,
and it was denied on January 12, 2011. (See No. 3:09-CV-1777, docs. 8, 9.) He filed a second §
2255 motion on December 8, 2015, and amended it on January 12, 2016. (See 3:15-CV-3912, docs.
1, 5.) After being appointed to investigate and pursue any potentially meritorious claims, the
Federal Public Defender filed an unopposed motion to transfer the case to the United States Court
of Appeals for the Fifth Circuit for authorization to file a second or successive §2255 motion, which
was granted on April 26, 2016. (See docs. 9, 10, 11.) On May 27, 2016, the Fifth Circuit authorized
Movant to file a successive § 2255 motion challenging the enhancement of his sentence for
possession of a firearm by a felon under the Armed Career Criminal Act (ACCA), 18 U.S.C. §
924(e)(2)(B)(ii), based on Johnson v. United States, 135 S.Ct. 2551 (2015), and Welch v. United
States, 136 S. Ct. 1257 (2016). (See doc. 12); In re Vickers, No. 16-10509 (5th Cir. May 27, 2016).
He filed his amended § 2255 motion on June 26, 2016. (See doc. 14.)
Movant contends that the use of his 1982 Texas murder conviction to enhance his sentence
under § 924(e) violated his right to due process under Johnson because it can only be a violent
felony under § 924(e)’s residual clause, since “it is not enumerated [in that statute] and lacks force
as an element, because it is a species of injury causation.” (See doc. 14 at 7.) The Government filed
a response on October 13, 2016. (See doc. 19.)
2

18-10940.915

Vickers v. United States
Petition Appendix

18a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 3 of 15 PageID 98

II. SCOPE OF RELIEF AVAILABLE UNDER § 2255
“Relief under 28 U.S.C. § 2255 is reserved for transgressions of constitutional rights and for
a narrow range of injuries that could not have been raised on direct appeal and would, if condoned,
result in a complete miscarriage of justice.” United States v. Gaudet, 81 F.3d 585, 589 (5th Cir.
1996) (citations and internal quotation marks omitted). It is well-established that “a collateral
challenge may not do service for an appeal.” United States v. Shaid, 937 F.2d 228, 231 (5th Cir.
1991) (en banc) (quoting United States v. Frady, 456 U.S. 152, 165 (1982)).
A failure to raise a claim on direct appeal may procedurally bar an individual from raising
the claim on collateral review. United States v. Willis, 273 F.3d 592, 595 (5th Cir. 2001).
Defendants may only collaterally attack their convictions on grounds of error omitted from their
direct appeals upon showing “cause” for the omission and “actual prejudice” resulting from the
error. Shaid, 937 F.2d at 232. However, “there is no procedural default for failure to raise an
ineffective-assistance claim on direct appeal” because “requiring a criminal defendant to bring
[such] claims on direct appeal does not promote the[] objectives” of the procedural default doctrine,
“to conserve judicial resources and to respect the law’s important interest in the finality of
judgments.” Massaro v. United States, 538 U.S. 500, 503-04 (2003). The Government may also
waive the procedural bar defense. Willis, 273 F.3d at 597.
III. ARMED CAREER CRIMINAL ACT
As the Supreme Court of the United States noted in Johnson,
Federal law forbids certain people—such as convicted felons, persons committed to
mental institutions, and drug users—to ship, possess, and receive firearms. § 922(g).
In general, the law punishes violation of this ban by up to 10 years’ imprisonment.
§ 924(a)(2). But if the violator has three or more earlier convictions for a “serious
drug offense” or a “violent felony,” [Section 924 of the Armed Career Criminal Act]
increases his prison term to a minimum of 15 years and a maximum of life. §
924(e)(1); Curtis Johnson v. United States, 559 U.S. 133, 136, 130 S.Ct. 1265, 176
3

18-10940.916

Vickers v. United States
Petition Appendix

19a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 4 of 15 PageID 99

L.Ed.2d 1 (2010). The Act defines “violent felony” as:
any crime punishable by imprisonment for a term exceeding one year ...
that—
(i) has as an element the use, attempted use, or threatened use of physical
force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or otherwise
involves conduct that presents a serious potential risk of physical injury to
another. § 924(e)(2)(B) (emphasis added).
135 S.Ct. at 2555-56. Subsection (i) is known either as the force clause, United States v. Lerma, 877
F.3d 628, 630 (5th Cir. 2017), or as the elements clause, United States v. Taylor, 873 F.3d 476, 477
n.1 (5th Cir. 2017). The four offenses listed in subsection (ii) are referred to as the “enumerated
offenses,” see United States v. Davis, 487 F.3d 282, 285 (5th Cir. 2007), or as the “enumerated
offenses clause,” Taylor, 873 F.3d at 477 n.1. The remainder of the subsection is known as the
“residual clause,” Johnson, 135 S.Ct. 2555-56.
Johnson held that the imposition of an increased sentenced under ACCA’s residual clause
violates the Constitution’s guarantee of due process because the residual clause is unconstitutionally
vague. Johnson, 135 S. Ct. at 2563.2 After Johnson, a crime is a violent felony under ACCA only
if it is one of the enumerated offenses, or if it qualifies under the force clause. United States v.
Moore, 711 F. App’x 757, 759 (5th Cir. 2017) (per curiam).
Here, the offense of which Movant was convicted, murder, is not an enumerated offense.
Neither the Fifth Circuit Court of Appeals nor any district court within the circuit appears to have
considered whether it qualifies as a violent felony under ACCA’s force clause because it has as an
element the use, attempted use, or threatened use of physical force.

2

This holding is retroactively available on collateral review. Welch v. United States, 136 S.Ct. 1257, 1268 (2016).
4

18-10940.917

Vickers v. United States
Petition Appendix

20a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 5 of 15 PageID 100

IV. TEXAS MURDER STATUTE
The version of Texas Penal Code § 19.02(a) in effect at the time of Movant’s murder
conviction in 1982 provided:
(a) A person commits an offense if he:
(1) intentionally or knowingly causes the death of an individual;
(2) intends to cause serious bodily injury and commits an act clearly dangerous to human life that
(3) commits or attempts to commit a felony, other than voluntary or
involuntary manslaughter, and in the course of and in furtherance of the
commission or attempt, or in immediate flight from the commission or
attempt, he commits or attempts to commit an act clearly dangerous to human
life that causes the death of an individual.
Tex. Penal Code § 19.02 (1974); see Act of June 14, 1973, 63rd Leg., R.S., ch. 399, § 1, 1973 Tex.
Gen. Laws 883, 913.
A.

Applicable Approach
To determine whether a crime is a violent felony under the force clause, courts use either the

categorical approach or the modified categorical approach, depending on whether the statute setting
out the offense is indivisible or divisible. See Lerma, 877 F.3d at 631; United States v. Howell, 838
F.3d 489, 494-95 (5th Cir. 2016). An indivisible statute sets out “a single set of elements
[defining]”, or “various means of committing,” a single crime or offense. Lerma, 877 F.3d at 631;
Howell, 838 F.3d at 497. A divisible statute “lists multiple, alternative elements, and so effectively
creates ‘several different ... crimes.’” Descamps v. United States, 133 S. Ct. 2276, 2285 (2013)
(quoting Nijhawan v. Holder, 557 U.S. 29, 41 (2009)).
“Elements are the constituent parts of a crime’s legal definition”, i.e., what the prosecution
must prove and the jury must find beyond a reasonable doubt to convict the defendant, or what the
defendant must admit when he pleads guilty. Mathis v. United States, 136 S.Ct. 2243, 2248 (2016).
5

18-10940.918

Vickers v. United States
Petition Appendix

21a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 6 of 15 PageID 101

“An element of a crime must be distinguished from the means of satisfying a single element.”
Lerma, 877 F.3d at 631. The test for determining whether a statute alternatively sets out elements
or means of satisfying an element is whether a jury must agree on one of the statutory alternatives
in reaching a verdict. Howell, 838 F.3d at 497.
Elements must be agreed upon by a jury. When a jury is not required to agree on the way
that a particular requirement of an offense is met, the way of satisfying that requirement is
a means of committing an offense not an element of the offense.
Id. at 498 (quoting United States v. Hinkle, 832 F.3d 569, 574-75 (5th Cir. 2016)).
If a statute is indivisible because it sets out a single set of elements, the sentencing court must
apply the “categorical approach.” Mathis,136 S.Ct. at 2248. It “requires the sentencing court, when
determining whether a crime qualifies as a violent felony under the elements [or force] clause, to
focus solely on whether the elements of the crime of conviction include the use, attempted use, or
threatened use of physical force against the person of another.” Lerma, 877 F.3d at 630. “The
sentencing court is not permitted to review the particular facts of the case.” Id.
If a statute is divisible because it lists alternative elements, the sentencing court must use the
“modified categorical approach” to determine the elements under which the defendant was
convicted. Mathis, 136 S.Ct. at 2253. Under this approach, the court looks “to a limited class of
documents (for example, the indictment, jury instructions, or plea agreement and colloquy) to
determine what crime, with what elements, a defendant was convicted of [committing].” Id. at 2249
(citations omitted). “The court can then determine, in deciding whether the crime satisfies the
elements [or force] clause, if one of those elements included the use, attempted use, or threatened
use of physical force against the person of another.” Lerma, 877 F.3d at 630.
To determine whether a statute is divisible or indivisible, courts may consider several
sources, including the statutory text and state court decisions. United States v. Reyes-Contreras, 882
6

18-10940.919

Vickers v. United States
Petition Appendix

22a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 7 of 15 PageID 102

F.3d 113, 119 (5th Cir. 2018). The Texas Court of Criminal Appeals has held that the text of the
current Texas murder statute contains three subsections setting out alternative means of committing
the same offense.3 See Ex parte Rogers, 2017 WL 5476353 at *1 (Tex. Crim. App. Nov. 15, 2017)
(murder under § 19.02(b)(1) and § 19.02(b)(2) are alternate means of committing murder); Young
v. State, 341 S.W.3d 417, 423 (Tex. Crim. App. 2011) (noting murder is a “result of conduct”
offense “because it punishes the intentional killing of someone regardless of the specific manner ...
of causing the person’s death”); Aguirre v. State, 732 S.W.2d 320, 325–26 (Tex. Crim. App. 1982)
(opinion on rehearing) (holding when indictment contained two paragraphs, the first alleging murder
under § 19.02(b)(1) and the second alleging murder under § 19.02(b)(3), the allegations were merely
two different manners and means of committing same offense). A jury is not required to reach
unanimous agreement about which subsection of the murder statute a defendant violated, because
the three methods of committing murder set forth in the statute are different manners and means of
committing the same offense, not distinct and separate offenses. Smith v. State, 436 S.W.3d 353,
378 (Tex. App. – Houston [14th Dist.] 2014).
Because the three subsections of the Texas murder statute set out three alternative means of
committing murder by causing the death of an individual, and a jury is not required to agree by
which of the three means a defendant committed murder, the statute is indivisible. See Lerma, 877
F.3d at 631; Howell, 838 F.3d at 497. The applicable approach for determining whether the offense
of murder qualifies as a violent felony under ACCA’s force clause is therefore the “categorical
approach.” See Mathis,136 S.Ct. at 2248. The Court must therefore “focus solely on whether the

3

The only difference between the current version of the murder statute and the one under which Movant was convicted
is that the current version refers to “manslaughter,” rather than “voluntary or involuntary manslaughter,” in the
subsection that describes murder in the course of committing a felony.
7

18-10940.920

Vickers v. United States
Petition Appendix

23a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 8 of 15 PageID 103

elements of the crime of conviction include the use, attempted use, or threatened use of physical
force against the person of another.” See Lerma, 877 F.3d at 630.
B.

Use of Physical Force
“The phrase ‘physical force’ [in § 924(e)(2)(B)(i)] means violent force—that is, force

capable of causing physical pain or injury to another person.” See Johnson v. United States, 559
U.S. 133, 140 (2010). As noted, neither the Fifth Circuit nor any district court within it appears to
have considered whether Texas murder (which makes it a crime to cause the death of an individual)
includes the use of physical force as an element for purposes of determining whether it qualifies a
violent felony under ACCA’s force clause.4 The Fifth Circuit has, however, considered whether
assault (which makes it a crime to cause bodily injury) includes the use of physical force as an
element for purposes of deciding whether it qualifies as a “crime of violence” under the force clause
in 18 U.S.C. § 16(a), which is almost identical to the one in ACCA.5 See United States v.
Villegas–Hernandez, 468 F.3d 874 (5th Cir. 2006). Its analysis in that case is therefore instructive.6

4

Two district courts have held that attempted murder under Texas law is a violent felony under ACCA. See Joiner v.
United States, No. A-12-CR-0014-SS, A-16-CV-01069-SS, 2018 WL 814021 at *4-5 (W.D. Tex. Feb. 9, 2018) (finding
that under either the categorical or modified categorical approaches, attempted murder by shooting a gun is a violent
felony for purposes of ACCA); United States v. Gonzales, No. 2:11-CR-801 (2:14-CV-388), 2017 WL 978700 at (S.D.
Tex. Mar. 13, 2017) (finding that attempted murders by stabbing with a knife, a deadly weapon, and by shooting were
violent felonies under ACCA because courts in other jurisdictions had concluded that other states’ attempted murder
convictions were proper predicate offenses under its force clause). Neither case analyzed the statutory elements of the
offense as required under the categorical approach, however. See Lerma, 877 F.3d at 630.

5

Section 16(a) defines a “crime of violence” as “an offense that has as an element the use, attempted use, or threatened
use of physical force against the person or property of another.” 18 U.S.C. § 16(a) (2000) (emphasis added). ACCA
refers only to the use of physical force against the person of another.
6

Courts analyzing issues arising under the force clause of either § 16(a) or ACCA rely on cases under both statutes, as
well as on identically worded sentencing guidelines regarding crimes of violence. See Johnson v. United States, 559
U.S. 133, 140 (2010) (relying on case law under § 16 in an analysis of the elements of a crime under the force clause
of § 924(e); United States v. Paniagua, 481 F. App’x 162, 166 (5th Cir. 2012) (relying on case law under § 924(e) in
an analysis of the elements of a crime under the force clause of § 16); United States v. Johnson, 880 F.3d 226, 234 (5th
Cir. 2018) (“precedent regarding ACCA’s definition of a violent felony is directly applicable to the Guidelines definition
of a crime of violence”).
8

18-10940.921

Vickers v. United States
Petition Appendix

24a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

1.

Page 9 of 15 PageID 104

Villegas-Hernandez and Progeny

In Villegas–Hernandez, the Fifth Circuit began its analysis of the Texas assault statute under
the categorical approach by first explaining that “the term ‘force’ has a specific meaning and, ‘when
used in the statutory definition of a ‘crime of violence,’ is ‘synonymous with destructive or violent
force.’” Id. at 878-79 (quoting United States v. Landeros–Gonzales, 262 F.3d 424, 426 (5th Cir.
2001)). Because use of force must be “an element” of the offense, assault would satisfy the
definition of “crime of violence” in § 16(a) “only if a conviction for that offense could not be
sustained without proof of the use of ‘destructive or violent’ force.” Id. at 879. The court noted that
the “bodily injury” required by the assault statute “could result from any of a number of acts,
without use of ‘destructive or violent force’, [such as] making available to the victim a poisoned
drink while reassuring him the drink is safe, or telling the victim he can safely back his car out while
knowing an approaching car driven by an independently acting third party will hit the victim.” Id.
Because the prosecution would not need to show use of physical force to convict under these
scenarios, the Fifth Circuit concluded that use of force was not a element of the offense, so assault
did not qualify as a “crime of violence” under § 16(a). Id. In so finding, the Fifth Circuit recalled
its prior en banc holdings in United States v. Vargas-Duran, 356 F.3d 598, 606 (5th Cir. 2004) (en
banc), that “‘[t]here is ... a difference between a defendant’s causation of injury and the ... use of
[physical] force,’” and that “‘the intentional causation of injury does not necessarily involve the use
of force.’” Id. at 880-81.
The Fifth Circuit subsequently considered whether a California terroristic threat statute had
as an element the threatened use of physical force and was therefore a “crime of violence” for
purposes of § 2L1.2 of the Sentencing Guidelines, which is in relevant part identical to ACCA’s
force clause. See United States v. De La Rosa–Hernandez, 264 F. App’x 446, 447-49 (5th Cir.
9

18-10940.922

Vickers v. United States
Petition Appendix

25a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 10 of 15 PageID 105

2008). Citing Villegas–Hernandez, it began its analysis by reiterating that its “rule is clear: if the
defendant may be found guilty of an offense under a set of a facts not involving the actual, attempted
use of physical force against another, the offense is not a [crime of violence].” Id. at 448-49
(emphasis original). Applying the categorical approach, the court found that “[a]s in Villegas, a
defendant could violate [the California statute, which criminalized threatening to commit a crime
that would result in death or great bodily injury to another person], by threatening either to poison
another or to guide someone intentionally into dangerous traffic, neither of which involve ‘force’,
as that term is defined by our court.” Id. at 449. Because it was possible to obtain a conviction
under the statute without proof of the threatened use of physical force, the Fifth Circuit found that
it was not an element of the offense, so it was not a crime of violence. Id.
More recently, in United States v. Rico-Mejia, 859 F.3d 318, 321 (5th Cir. 2017), the Fifth
Circuit again considered whether a “terroristic threatening” statute had the threatened use of physical
force as an element and was a crime of violence under § 2L1.2. The court found that even if the
district court correctly resorted to the modified categorical approach in analyzing the Arkansas
“terroristic threatening” statute, which made it an offense to threaten to cause death or serious bodily
injury to another person, the offense could not constitute a crime of violence under
Villegas–Hernandez and De La Rosa–Hernandez because a person could cause physical injury
without using physical force. Id. at 322-23.
2.

Castleman

The Government argues that the Supreme Court’s decision in United States v. Castleman,
134 S.Ct. 1405 (2014), undermined Villegas-Hernandez and the other Fifth Circuit cases that held
that a statutory element of causing injury or threatening to cause the death of a person does not
necessarily include the use or threatened use of physical force. (See doc. 19 at 5-9.) This argument
10

18-10940.923

Vickers v. United States
Petition Appendix

26a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 11 of 15 PageID 106

has recently been expressly rejected by the Fifth Circuit, however:
The Government responds that [Villegas-Hernandez and its progeny] have been
U.S.
, 134 S.Ct. 1405, 1414, 188
overruled by United States v. Castleman,
L.Ed.2d 426 (2014), which held that a defendant’s guilty plea to having
“intentionally or knowingly cause[d] bodily injury” to the mother of his child
constituted “the use of physical force” required for a misdemeanor crime of domestic
violence as defined in 18 U.S.C. § 921(a)(33)(A). The Government points out that
as part of the Supreme Court’s reasoning in that decision, it applied a definition of
“use of physical force” that was much broader than that described in the above cases
– one that could involve harm caused both directly and indirectly and that would
include administering poison or similar actions. Id. at 1413–15. ...
The Government’s contention regarding Castleman must be rejected. By its express
terms, Castleman’s analysis is not applicable to the physical force requirement for
a crime of violence, which “suggests a category of violent, active crimes” that have
as an element a heightened form of physical force that is narrower in scope than that
applicable in the domestic violence context. 134 S.Ct. at 1411 n.4 (noting that
“Courts of Appeals have generally held that mere offensive touching cannot
constitute the ‘physical force’ necessary to a ‘crime of violence’ ” and clarifying that
“[n]othing in today’s opinion casts doubt on these holdings, because ... ‘domestic
violence’ encompasses a range of force broader than that which constitutes
‘violence’ simpliciter”). Accordingly, Castleman does not disturb this court’s
precedent regarding the characterization of crimes of violence, and [the Arkansas
terroristic threat statute] cannot constitute a crime of violence ... because it lacks
physical force as an element.
Rico-Mejia, 859 F.3d at 322-23.
Subsequently, in Reyes-Contreras, the Fifth Circuit noted the Government’s argument that
“indirect force is sufficient, [and that Castleman had] overruled Fifth Circuit precedent requiring
destructive or violent force by interpreting the use-of-force clause in 18 U.S.C. § 921(a)(33)(A)(ii)
to encompass the common-law definition, which includes offensive touching and indirect
applications of force.” 882 F.3d at 123. It also noted, however, its prior holdings in Rico-Mejia as
well as United States v. Calderon-Pena, 383 F.3d 254, 260 (5th Cir. 2004), “in which the en banc
court expressly held that an offense that can be committed without ‘any bodily contact (let alone
violent or forceful contact)’” does not have physical force as an element.” Id. As the Fifth Circuit
11

18-10940.924

Vickers v. United States
Petition Appendix

27a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 12 of 15 PageID 107

acknowledged,
[t]he government rightly points out that many circuits have rejected this view and have
expanded Castleman to state that indirect causation of bodily injury may warrant a [crime
of violence] enhancement. But Castleman does not on its own terms make this expansion,
and a previous panel [in Rico-Mejia] declined to interpret it as doing so, thus binding us.
Id. This court is likewise bound by Rico-Mejia’s rejection of the Government’s reliance on
Castleman.6
3.

Howell

The Government also argues that in United States v. Howell, 838 F.3d 489 (5th Cir. 2016),
the Fifth Circuit held that causation of bodily injury requires the use of force, so causation of death
also requires the use of force, since death is a higher level of bodily injury. (See doc. 19 at 7-8.)
The Texas statute at issue in Howell was assault by causing bodily injury to a family member by
“impeding the normal breathing or circulation of the blood of the person by applying pressure to the
person’s throat or neck or by blocking the person’s nose or mouth.” Id. at 490-91. Holding that the
offense was a crime of violence under the force clause, the court explained:
It is difficult to conceive of how applying pressure to either a person’s throat or neck
in a manner that resulted in “impeding the normal breathing or circulation” could not
involve the use of physical force. The same is true of blocking a person’s nose or
mouth resulting in “impeding the normal breathing or circulation of the blood of the
person.” ... The operative language in the statute is “by applying pressure to the
person’s throat” or “by blocking the person’s nose or mouth,” indicating affirmative
action on the part of the defendant that is more direct [than the hypotheticals argued
by Howell].
Id. at 502.
In addition to the element of causing bodily injury, the assault statute in Howell had as an
element the use of physical force by either impeding breathing or circulation of the blood by

6

The Government filed a motion for rehearing en banc in Reyes-Contreras on April 5, 2018.
12

18-10940.925

Vickers v. United States
Petition Appendix

28a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 13 of 15 PageID 108

applying pressure to the throat or by blocking the nose or mouth.7 By contrast, the statutes at issue
in Villegas-Hernandez and De La Rosa-Hernandez only had as an element the causing of bodily
injury or the threat to cause death; they did not have any additional element regarding the use or
threatened use of physical force. Howell is therefore distinguishable.
In conclusion, the Court finds that the Fifth Circuit’s rationale in Villegas-Hernandez for
finding that a person can cause bodily injury without the use of physical force, which was reaffirmed
in De La Rosa–Hernandez and Rico-Mejia, applies equally to the determination of whether a person
may cause the death of another under the Texas murder statute without the use of physical force.
In those cases, the court repeatedly noted that there are any number of actions, including poisoning
and deception, that do not require the use of destructive or violent force in order to cause bodily
injury, or to threaten to commit a crime that would result in death or great bodily injury to another
person. These same types of actions could also cause the death of a person. Because there is a set
of facts that would support a conviction for Texas murder without proof of the use of force, and the
use of force is not a fact necessary to support a conviction under that statute, the use of force is not
an element of Texas murder. Applying the Fifth Circuit’s clear rule in Villegas–Hernandez to the
Texas murder statute, the Court finds that the offense is not a violent felony under ACCA’s force

7

The Fifth Circuit later relied on Howell in considering whether a Minnesota unintentional murder statute was a crime
of violence for purposes of § 2L1.2. See United States v. Herrera-Serrano, 703 F. App’x 342 (5th Cir. 2017). Under
the statute, a person commits an offense if he “causes the death of a human being, without intent to effect the death of
any person, while committing a felony offense ... with force or violence or a drive-by shooting.” Id. at 344. The court
noted that Minnesota required the jury to be instructed as to the elements of the underlying felony, and that an element
of the underlying felony in that case, assault, was the infliction of “great bodily harm.” Id. at 344-45. Applying the
modified categorical approach, the Fifth Circuit held that the Minnesota offense was a crime of violence because it had
as an element the use of physical force. Id. It specifically noted its holding in Howell “that intentional, knowing, or
reckless causing of bodily injury to another (the Texas offense of domestic abuse by impeding breathing or circulation)
has as an element the use of force.” Id. As in Howell, the statute in Herrera-Serrano had as an element the use of
physical force in addition to the element of injury causation.
13

18-10940.926

Vickers v. United States
Petition Appendix

29a

Case 3:15-cv-03912-B-BH Document 21 Filed 05/07/18

Page 14 of 15 PageID 109

clause.8
Movant’s sentence was enhanced under ACCA, in part, based on the murder offense.
Because murder is no longer a violent felony after Johnson, the enhancement under the ACCA and
increase in Movant’s offense level as a career armed criminal does not survive.
V. RECOMMENDATION
The motion to vacate, set aside, or correct sentence pursuant to 28 U.S.C. § 2255 should be
GRANTED, the sentence should be vacated, and Movant should be re-sentenced.
SO RECOMMENDED this 7th day of May, 2018.

___________________________________
IRMA CARRILLO RAMIREZ
UNITED STATES MAGISTRATE JUDGE

8

Even if the modified categorical approach was used, the result would be the same. As discussed, under this
approach, courts look to documents such the indictment, jury instructions, or plea agreement, to determine the offense
and elements of conviction. Mathis, 136 S.Ct. at 2249. Once the statutory elements are determined by resorting to court
documents, it is those elements, rather than the underlying conduct, that are used to determine whether the offense is a
violent felony under the elements clause. See United States v. Godoy-Castaneda, 614 F. App’x 768, 770 (5th Cir. 2015).
Here, the indictment alleged that Movant caused the death of an individual by “striking the deceased with bottles and
boards.” (See, 3:15-CV-3912-B, doc. 20 at 3.) The Texas Court of Criminal Appeals has explained that the allegation
of the “manner and means [of causing death] is a description of how the offense was committed,” and it includes the
defendant’s actions and the instrument of death. Sanchez v. State, 376 S.W.3d 767, 773 (Tex. Crim. App. 2012). The
jury does not need to unanimously agree on the manner and means of causing death, only that the defendant caused the
death. See id. at 773-74 (jury not required to unanimously agree on whether the defendant cause the death by one of
several possible ways of asphyxiating the deceased). Because jury unanimity is not required for the manner and means
of causing the death of an individual, the manner and means in Movant’s case, i.e., “striking the deceased with bottles
and boards,” are not elements of the offense. See Howell, 838 F.3d at 497. The relevant element of murder under the
modified categorical approach is causing the death of an individual. As discussed, the element of causing the death of
an individual does not make murder a violent felony under the force clause.

14

18-10940.927

Vickers v. United States
Petition Appendix

30a

Case 3:15-cv-03912-B-BH Document 23 Filed 06/05/18

Page 1 of 4 PageID 132

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
MICHAEL DEWAYNE VICKERS
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 3:15-CV-3912-B-BH

ORDER OVERRULING GOVERNMENT’S OBJECTIONS
AND ADOPTING THE FINDINGS AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Before the Court is the Government’s Objection, Doc. 22, to the United States Magistrate
Judge’s Findings, Conclusions, and Recommendation, Doc. 21.The Court OVERRULES the
Government’s objection.
I.
BACKGROUND
The Magistrate Judge’s Report and Recommendation provides the history of this case, and
the Court will not reproduce a detailed here. Suffice it to say that Vickers petitioned the Court under
28 U.S.C. § 2255 to resentence him, the Magistrate Judge agreed and recommended that the Court
resentence Vickers, and the Government timely objected to the Magistrate Judge’s Report and
Recommendation.
II.
ANALYSIS
Rule 72(b) of the Federal Rules of Civil Procedure provides that within fourteen days after
-1-

18-10940.950

Vickers v. United States
Petition Appendix

31a

Case 3:15-cv-03912-B-BH Document 23 Filed 06/05/18

Page 2 of 4 PageID 133

being served a copy of the Magistrate Judge’s recommendation, a party may file specific written
objections. Fed. R. Civ. P. 72(b)(2); 28 U.S.C. § 636(b)(1). “The district court must then ‘make a
de novo determination of those portions of the report or specified proposed findings or
recommendations to which objection is made’ before accepting, rejecting, or modifying those findings
or recommendations.” Habets v. Waste Mgmt., Inc., 363 F.3d 378, 381 (5th Cir. 2004)(quoting 28
U.S.C. § 636(b)(1)).
The Court originally gave Vickers an enhanced sentence under 18 U.S.C. § 924(e) based on
three of Vickers’s prior felony convictions. Doc. 21, R & R, 2. One of those convictions was for
murder under Texas law. Id. at 1.
Section 924(e)(1) imposes a mandatory minimum sentence on convicts who have already
been convicted of three violent felonies. Section 924(e)(2)(B) defines “violent felony” in part as “any
crime punishable by imprisonment for a term exceeding one year . . . that (i) has as an element the
use, attempted use, or threatened use of physical force against the person of another.” The Court will
refer to this clause of the definition as “the force clause.” Although the statute formerly defined
violent felony additionally to include crimes involving “conduct that presents a serious potential risk
of physical injury to another,” the Supreme Court struck down that part of the definition as
unconstitutionally vague. Johnson v. United States, 135 S. Ct. 2551, 2557 (2015).
Vickers argues that he should be resentenced. Doc. 14, Mot. to Vactate. He contends that
after Johnson his Texas murder conviction no longer fits the definition of violent felony because
Texas murder does not fall under the force clause. Id.
The Magistrate Judge agreed with Vickers. Doc. 21, R & R, 14. The Magistrate Judge found
that the force clause does not encompass Texas murder because Texas law defines murder as causing
-2-

18-10940.951

Vickers v. United States
Petition Appendix

32a

Case 3:15-cv-03912-B-BH Document 23 Filed 06/05/18

Page 3 of 4 PageID 134

the death of another human being,1 and a jury can convict a defendant of murder without finding
that the defendant used physical force. Id. at 10–14. Although the Government argued that the
Supreme Court case United States v. Castleman, 134 S. Ct. 1405, 1410 (2014) requires courts to find
that crimes involve the use of physical force even when only indirect force will support a conviction,
Doc. 22, Objection, 4, the Magistrate Judge recognized that the Fifth Circuit has continued to
distinguish between crimes involving direct force and those involving indirect force after Castleman
and continued to exclude crimes involving only indirect force from the definition of violent felony,
Doc. 21, R & R, 10–14.
The Magistrate Judge correctly applied Fifth Circuit law. Even after Castleman, the Fifth
Circuit has continued to exclude crimes involving only indirect force from § 924(e)’s definition of
violent felony. See United States v. Rico-Mejia, 859 F.3d 318, 322–23 (5th Cir. 2017). The Court
notes however that the Fifth Circuit is alone in taking this approach; the rest of the circuits to
consider the matter have held that Castleman abolished the distinction between direct and indirect
force in force-clause cases and have begun to include crimes involving the use of indirect force in the
definition of violent felony.2 Whatever the other circuits’ approaches, though, the Court follows the

1

Tex. Penal Code § 19.02(a).

2

See United States v. Ontiveros, 875 F.3d 533, 538–39 (10th Cir. 2017); United States v. Chapman,
866 F.3d 129, 133 (3d Cir. 2017) (applying Castleman to USSG § 4B1.2); United States v. Reid, 861 F.3d 523,
529 (4th Cir. 2017) (applying Castleman to USC § 924(e)(1)); United States v. Jennings, 860 F.3d 450, 458–60
(7th Cir. 2017) (same); United States v. Rice, 813 F.3d 704, 705–06 (8th Cir.) (applying Castleman to USSG
§ 4B1.2), cert. denied, ––– U.S. ––––, 137 S.Ct. 59, 196 L.Ed.2d 59 (2016); Arellano Hernandez v. Lynch, 831
F.3d 1127, 1131 (9th Cir. 2016) (implicitly applying reasoning of Castleman to 18 U.S.C. § 16(a)), cert.
denied sub nom. Hernandez v. Sessions, ––– U.S. ––––, 137 S.Ct. 2180, 198 L.Ed.2d 232 (2017); United States
v. Hill, 832 F.3d 135, 143 (2d Cir. 2016) (applying Castleman to 18 U.S.C. § 924(c)(3)(A)); United States v.
Haldemann, 664 Fed.Appx. 820, 822 (11th Cir. 2016) (unpublished) (applying Castleman to USSG § 4B1.2).
-3-

18-10940.952

Vickers v. United States
Petition Appendix

33a

Case 3:15-cv-03912-B-BH Document 23 Filed 06/05/18

Page 4 of 4 PageID 135

Fifth Circuit and therefore overrules the Government’s objection, adopts the Magistrate Judge’s
Report and Recommendation, and vacates Vicker’s sentence.

III.
CONCLUSION
The Court OVERRULES the Government’s objection, ADOPTS the Magistrate Judge’s
Report and Recommendation, and VACATES Vicker’s sentence.

SO ORDERED.
Dated: June 5, 2018.

________________________________
JANE J. BOYLE
UNITED STATES DISTRICT JUDGE

-4-

18-10940.953

Vickers v. United States
Petition Appendix

34a

Case 3:15-cv-03912-B-BH Document 24 Filed 06/05/18

Page 1 of 1 PageID 138

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
MICHAEL DEWAYNE VICKERS,
Movant,
vs.

)
)
)
)
)
)

UNITED STATES OF AMERICA,
Respondent.

No. 3:15-CV-3912-B
No. 3:06-CR-0229-B

JUDGMENT
This action came on for consideration by the Court, and the issues having been duly
considered and a decision duly rendered,
It is ORDERED, ADJUDGED and DECREED that:
1.

The motion to vacate, set aside or correct sentence filed under 28 U.S.C. § 2255 is

GRANTED, and the movant’s sentence in Cause No. 3:06-CR-0229-B is hereby VACATED.
2.

The Clerk shall transmit a true copy of this Judgment and the Order Accepting the

Findings and Recommendation of the United States Magistrate Judge to all parties. This judgment
shall also be docketed in the criminal case.
SIGNED this 5th day of June, 2018.

_________________________________
JANE J. BOYLE
UNITED STATES DISTRICT JUDGE

Vickers v. United States
Petition Appendix

35a

18-10940.954

Case 3:06-cr-00229-B Document 88 Filed 06/27/18

Page 1 of 7 PageID 1127

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

JUDGMENT ON RESENTENCING IN A
CRIMINAL CASE

v.

Case Number: 3:06-CR-00229-B(l)
USM Number: 35401-177

MICHAEL DEWAYNE VICKERS

James Matthew Wright
Defendant's Attorney

THE DEFENDANT:

D
D
D
~

pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.
Magistrate Judge, which was accepted by the
court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Count 1 of the one-count Indictment filed July 25, 2006

The defendant is adjudicated guilty of these offenses:
Title & Section I Nature of Offense

Offense Ended

18 U.S.C. §§ 922(g)(l) & 924(a)(2) - Felon in Possession of a Firearm

08/30/2005

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

D
D

The defendant has been found not guilty on count(s)
Count(s)

D is

D

are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

June 27 2018
Date of Imposition of Judgment

J.

OYLE, UNITED STATES DISTRICT JUDGE

Nam and Title of Judge

June 27, 2018
Date

18-10940.264

Vickers v. United States
Petition Appendix

36a

Case 3:06-cr-00229-B Document 88 Filed 06/27/18

Page 2 of 7 PageID 1128
Judgment -- Page 2 of 7

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

MICHAEL DEWAYNE VICKERS
3: 06-CR-00229-B( 1)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
98 MONTHS. This term consists of 120 months as to Count I, to be adjusted pursuant to USSG §5G 1.3(b )(1) to account for 22
months served in state custody for relevant conduct to the instant offense, which will not be credited to the defendant, for an adjusted
total sentence of 98 months.

D

The court makes the following recommendations to the Bureau of Prisons:

IZI
D

The defendant is remanded to the custody of the United States Marshal.

D

The defendant shall surrender to the United States Marshal for this district:

D

at

D

as notified by the United States Marshal.

D

D

a.m.

p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D
D
D

before 2 p.m. on
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

to

at - - - - - - - - - - - - - ' with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

18-10940.265

Vickers v. United States
Petition Appendix

37a

Case 3:06-cr-00229-B Document 88 Filed 06/27/18

Page 3 of 7 PageID 1129
Judgment -- Page 3 of7

AO 2458 (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

MICHAEL DEWAYNE VICKERS
3:06-CR-00229-B(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: three (3) years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

D

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4.

D

You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

5.

You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

6.

1ZJ
D

7.

D

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

18-10940.266

Vickers v. United States
Petition Appendix

38a

Case 3:06-cr-00229-B Document 88 Filed 06/27/18

Page 4 of 7 PageID 1130
Judgment -- Page 4 of 7

AO 2458 (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

MICHAEL DEWAYNE VICKERS
3:06-CR-00229-B(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant's Signature

Date

18-10940.267

Vickers v. United States
Petition Appendix

39a

Case 3:06-cr-00229-B Document 88 Filed 06/27/18

Page 5 of 7 PageID 1131
Judgment -- Page 5 of7

AO 245B (Rev. TXN 2118) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

MICHAEL DEWAYNE VICKERS
3:06-CR-00229-B(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall provide to the probation officer any requested financial information.

18-10940.268

Vickers v. United States
Petition Appendix

40a

Case 3:06-cr-00229-B Document 88 Filed 06/27/18

Page 6 of 7 PageID 1132

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 6 of7

MICHAEL DEWAYNE VICKERS
3:06-CR-00229-B(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

Assessment
$100.00

TOTALS

D
D

JVT A Assessment*
$.00

Fine
$.00

Restitution
$.00

The determination of restitution is deferred until
An Amended Judgment in a Criminal Case (A0245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to I 8 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

D
D
D

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
D the interest requirement is waived for the
D fine
D restitution

D

the interest requirement for the

D

fine

D

restitution is modified as follows:

*Justice for Victims of Trafficking Act of2015, Pub. L. No. I 14-22
** Findings for the total amount of losses are required under Chapters I 09 A, 1I0, I I OA, and I l 3A of Title I 8 for offenses committed on or after
September 13, I 994, but before April 23, I 996.

18-10940.269

Vickers v. United States
Petition Appendix

41a

Case 3:06-cr-00229-B Document 88 Filed 06/27/18

Page 7 of 7 PageID 1133

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 7 of7

MICHAEL DEWAYNE VICKERS
3 :06-CR-00229-B(l)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:

D

Lump sum payments of$

D

not later than

D

in accordance

B

D

Payment to begin immediately (may be combined with

C

D

A

Payment in equal

·······----·..·---·---due immediately, balance due
, or

D

c,

D

D,

D

D

F

IZI

D

F below; or

D

C,

D

D,or

D

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of$
_ _ _ _ _ _ (e.g., months or years), to commence
imprisonment to a term of supervision; or

E

E,or

(e.g., weekly, monthly, quarterly) installments of$

_ _ _ _ _ _ (e.g., months or years), to commence
or

D

D

over a period of

(e.g., 30 or 60 days) after release from

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that
time; or
Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1, which
shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons'
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

D

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

D
D
D

Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (l) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

18-10940.270

Vickers v. United States
Petition Appendix

42a

Case: 07-10767

Document: 0051603883

Page: 1

Date Filed: 08/12/2008

IN THE UNITED STATES COURT OF APPEALS
Court of Appeals
FOR THE FIFTH CIRCUIT United States
Fifth Circuit

FILED
No. 07-10767
Summary Calendar

August 12, 2008
Charles R. Fulbruge III
Clerk

UNITED STATES OF AMERICA
Plaintiff-Appellee
v.
MICHAEL DEWAYNE VICKERS
Defendant-Appellant

Appeal from the United States District Court
for the Northern District of Texas

Before STEWART, OWEN, and SOUTHWICK, Circuit Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
Michael Dewayne Vickers was convicted, after a jury trial, of being a felon
in possession of a firearm in violation of federal law. Vickers timely appeals and
challenges both his conviction and sentence. We AFFIRM.
I. BACKGROUND
On August 5, 2005, at approximately 3:00 p.m., the Dallas Police
Department received a 911 call reporting a burglary. The caller described the
burglar as a black male dressed in a red T-shirt and a dark-colored pair of
shorts, and stated that the perpetrator might still be in the area. Vickers was
walking down the street of his neighborhood in Dallas, Texas. The Dallas Police
Department dispatched officers to investigate.

Vickers v. United States
Petition Appendix

43a

Case: 07-10767

Document: 0051603883

Page: 2

Date Filed: 08/12/2008

No. 07-10767
The first officer to arrive at the scene observed a black male wearing a red
T-shirt and dark shorts walking on the sidewalk near the house that had been
burglarized. It was Vickers. The officer stepped out of his patrol car and
ordered Vickers to put his hands on the hood of the police vehicle. Vickers
initially complied, but as the officer began to pat him down, Vickers said, “I can’t
go to jail,” and attempted to flee. Vickers ran only a few steps before he was
subdued and handcuffed.
After Vickers was subdued, the officers completed the search and
discovered a .38 caliber pistol in the front left pocket of Vickers’s pants. After
Vickers’s arrest, the person who had placed the 911 call approached and told the
officers they “had the wrong guy.” It is now undisputed that Vickers was not
involved in the burglary that prompted the 911 call. Vickers’s arrest was based
solely on possession of the weapon found as a result of the search.
Vickers was charged with being a felon in possession of a firearm. See 18
U.S.C. §§ 922(g)(1) & 924(e)(1). Vickers’s prior felony convictions justifying the
charge included murder, burglary of a habitation, and unlawful delivery of a
controlled substance. At his trial, Vickers presented no defense. His counsel
informed the jury in closing arguments that the trial essentially “pertain[ed] to
Mr. Vickers’ right to appeal.” After brief deliberations, the jury returned a
verdict of guilty.
At sentencing, the district court adopted the recommendation of the
Presentence Report. The PSR determined that Vickers’s three prior felony
convictions constituted either a “violent felony” or a “serious drug offense,” and
designated Vickers as an Armed Career Criminal for purposes of sentencing.
This designation mandated the imposition of a minimum sentence of fifteen
years. Vickers objected to the characterization of his prior state conviction for
delivery of a controlled substance as a “serious drug offense.” The district court
overruled the objection. The district court also denied Vickers’s request for a
two-level reduction in his sentence for acceptance of responsibility.
2

Vickers v. United States
Petition Appendix

44a

Case: 07-10767

Document: 0051603883

Page: 3

Date Filed: 08/12/2008

No. 07-10767
The final calculation placed Vickers’s offense level at 33 with a Criminal
History Category of IV. This resulted in a Sentencing Guideline range of 188 235 months. The district court sentenced Vickers to 190 months’ imprisonment
and three years of supervised release. The court adjusted the sentence from 190
months to 168 months to account for 22 months of incarceration by the state of
Texas that would not be credited to his sentence by the U.S. Bureau of Prisons.
On appeal, Vickers challenges both his conviction and sentence.
II. DISCUSSION
A.

Motion to Suppress
Vickers’s first argument is that the district court erred in denying his

motion to suppress. In evaluating a refusal to suppress evidence, we review
questions of law de novo and factual findings for clear error. United States v.
Mata, 517 F.3d 279, 284 (5th Cir. 2008). In addition, where, as here, the police
acted without a warrant, the burden is on the Government to prove that the
search was valid. United States v. Waldrop, 404 F.3d 365, 368 (5th Cir. 2005).
Vickers argues that the initial police action – pulling up in marked police
vehicles and immediately instructing Vickers to place his hands on the police car
– constituted an unconstitutional seizure under the Fourth Amendment because
the officers had neither a warrant nor probable cause. The Government, on the
other hand, characterizes the officers’ actions as a permissible “stop and frisk”
because the officers had reasonable suspicion that Vickers was involved in the
reported burglary based on the information provided in the 911 call.
The Fourth Amendment provides these relevant protections:
The Fourth Amendment prohibits unreasonable searches and
seizures by the Government, and its protections extend to brief
investigatory stops by persons or vehicles that fall short of
traditional arrest. Because the balance between the public interest
and the individual’s right to personal security tilts in favor of a
standard less than probable cause in such cases, the Fourth
Amendment is satisfied if the officer’s action is supported by
reasonable suspicion to believe that criminal activity may be afoot.
3

Vickers v. United States
Petition Appendix

45a

Case: 07-10767

Document: 0051603883

Page: 4

Date Filed: 08/12/2008

No. 07-10767
United States v. Arvizu, 534 U.S. 266, 273 (2002) (internal quotes and citations
omitted). The legality of a “stop and frisk” requires this analysis: were the
officer’s initial actions justified when they occurred, and was there a reasonable
relation between subsequent actions and the circumstances that supported the
stop? United States v. Brigham, 382 F.3d 500, 506 (5th Cir. 2004) (en banc).
(a)

The initial stop

The initial stop in a situation such as this is proper when “the officer has
reasonable, articulable suspicion that the person has been, is, or is about to be
engaged in criminal activity.” United States v. Hensley, 469 U.S. 221, 227 (1985)
(emphasis and citation omitted). Reasonable suspicion requires less information
and certainty than the probable cause needed to make an arrest. United States
v. Jones, 234 F.3d 234, 241 (5th Cir. 2000). Whether an officer has reasonable
suspicion to stop is answered from the facts known to the officer at the time.
The Fourth Amendment does not require a policeman who lacks the
precise level of information necessary for probable cause to arrest to
simply shrug his shoulders and allow a crime to occur or a criminal
to escape. On the contrary, Terry [v. Ohio, 392 U.S. 1 (1968),]
recognizes that it may be the essence of good police work to adopt an
intermediate response. A brief stop of a suspicious individual, in
order to determine his identity or to maintain the status quo
momentarily while obtaining more information, may be most
reasonable in light of the facts known to the officer at the time.
Adams v. Williams, 407 U.S. 143, 145-46 (1972).
The record shows that the police received an emergency phone call, in
which the caller reported that his own home had just been burglarized. The
victim provided his name, address, telephone number, as well as other personal
information. In response to the call, the following dispatch was sent: “Burglary
just occurred by unknown black male last seen wearing red shirt, blue or black
shorts. Suspect near location.” Upon arriving at the location, the officers
discovered Vickers – about 75 to 100 yards from the burglarized home – wearing
clothing that met the description of the reported burglar. Considering the
4

Vickers v. United States
Petition Appendix

46a

Case: 07-10767

Document: 0051603883

Page: 5

Date Filed: 08/12/2008

No. 07-10767
totality of the circumstances in this case, we find that the officers had a
“particularized and objective basis” to believe that a crime had been committed
and that Vickers was involved. Arvizu, 534 U.S. at 277.
Vickers argues that the 911 call was nothing more than an unreliable
anonymous tip, which did not provide reasonable suspicion. Vickers is factually
and legally incorrect. This was not anonymously-provided information; an
identified citizen had been victimized by a crime and was reporting it. The
question of whether a 911 call has a sufficient indicia of reliability to provide
reasonable suspicion to justify a stop is evaluated based on the circumstances of
each case. A good starting point is the presumption of “the reliability of an
eyewitness 911 call reporting an emergency situation for purposes of
establishing reasonable suspicion, particularly when the caller identifies” who
he or she is. United States v. Drake, 456 F.3d 771, 775 (7th Cir. 2006); see also
United States v. Burbridge, 252 F.3d 775, 778-79 (5th Cir. 2001) (“when an
average citizen tenders information to the police, the police should be permitted
to assume that they are dealing with a credible person in the absence of special
circumstances suggesting that such might not be the case.”) (citation omitted).
In this case, a burglary victim not only gave his name, he also provided
several other pieces of information to identify himself and the burglar. The 911
call in this case was sufficiently detailed that the police were justified in relying
on it to establish reasonable suspicion.
(b)

Scope of the stop

Though the police had reasonable suspicion to stop Vickers, the officers’
actions must not exceed the permissible scope of the stop. United States v.
Dortch, 199 F.3d 193, 198 (5th Cir. 1999). The question is whether the police
“diligently pursued a means of investigation that was likely to confirm or dispel
their suspicions quickly, during which time it was necessary to detain the
defendant.” United States v. Sharpe, 470 U.S. 675, 686 (1985).

5

Vickers v. United States
Petition Appendix

47a

Case: 07-10767

Document: 0051603883

Page: 6

Date Filed: 08/12/2008

No. 07-10767
The means of investigation pursued here was a frisk, which the Supreme
Court has held is appropriate when the officer fears that the suspect is armed
and poses a danger to the officer or others. Terry, 392 U.S. at 24. “The officer
need not be absolutely certain that the individual is armed; the issue is whether
a reasonably prudent man in the circumstances would be warranted in the belief
that his safety or that of others was in danger.” Id. at 27. The responding officer
testified that he immediately frisked Vickers because Vickers fit the description
provided by the 911 caller and Vickers was near where the burglary occurred.
The officer also testified, based on seventeen years of experience, that burglary
suspects are often armed. He felt his own safety required a pat-down of Vickers.
The reasonableness of police conduct includes consideration of “the specific
reasonable inferences that the officer is entitled to draw from the facts in light
of his experience and training.” United States v. Sanders, 994 F.2d 200, 203 (5th
Cir. 1993). Based on the totality of the circumstances, the district court did not
err in finding that the officer’s pat-down was reasonable.
The question of whether the officer should have pursued less intrusive
means (for example engaging in conversation with Vickers before commencing
the frisk) does not factor into our analysis. The Supreme Court has instructed
that, once an officer has established reasonable suspicion, appellate courts are
limited in reviewing how the police choose to alleviate that suspicion if the
intrusion is no longer than necessary to dispel the suspicion:
The reasonableness of the officer’s decision to stop a suspect does
not turn on the availability of less intrusive investigatory
techniques. Such a rule would unduly hamper the police’s ability to
make swift, on-the-spot decisions . . . and [ ] would require courts to
indulge in unrealistic second-guessing.
United States v. Sokolow, 490 U.S. 1, 11 (1989) (internal quotes and citations
omitted). In that case, the defendant’s argument that officers were obligated to
engage in conversation prior to detaining defendant was rejected. Id.

6

Vickers v. United States
Petition Appendix

48a

Case: 07-10767

Document: 0051603883

Page: 7

Date Filed: 08/12/2008

No. 07-10767
Vickers argues that two factors weigh against a finding that the officers
had a reasonable basis to stop and frisk him. First, he cites to a discrepancy in
police documentation regarding the time that the police were dispatched and the
time of Vickers’s arrest. Specifically, the arrest report indicated that Vickers
was arrested at 2:57 p.m., even though the dispatch related to the burglary
occurred at 2:59 p.m. Vickers argues that, if the times as reported are true, the
officers lacked reasonable suspicion to stop Vickers, because they had not
learned of the burglary at the time of the stop. The officers testified that the
time discrepancy was a clerical mistake by a data entry clerk. The district court
accepted that testimony. There was no clear error in that factual conclusion.
United States v. Jordan, 232 F.3d 447, 448 (5th Cir. 2000).
Vickers’s second argument is that any reasonable suspicion for a Terry
stop and frisk was tainted by the arresting officer’s subjective belief that he was
going to arrest Vickers at the time of the initial stop. Courts “are precluded from
giving weight to the subjective intent of police officers” in evaluating the
constitutionality of a stop. United States v. Holloway, 962 F.2d 451, 458 (5th
Cir. 1992). The standard we apply to the reasonableness of a stop is an objective
one – were the officers objectively authorized to act as they did viewing the
totality of the circumstances. Id. at 458 n.19.

The officers’ actions were

objectively reasonable regardless of their subjective intent.
In sum, reasonable suspicion existed to believe that Vickers was engaged
in a recently completed burglary, which gave the officers the right to stop him.
Furthermore, the officers did not exceed the permissible scope of the stop when
the officers sought to pat down Vickers. True, the police were incorrect in their
initial suspicion that Vickers was involved in the burglary that prompted the
police response.

That hindsight does not change the Fourth Amendment

analysis of whether the stop and frisk of Vickers was reasonable. Therefore, the
district court did not err in denying Vickers’s motion to suppress.

7

Vickers v. United States
Petition Appendix

49a

Case: 07-10767

Document: 0051603883

Page: 8

Date Filed: 08/12/2008

No. 07-10767
B.

Lack of Nexus Between Interstate Commerce
Vickers’s other challenge to his conviction is that the Government failed

to sustain its burden that the gun found on Vickers “affect[ed] interstate
commerce” – an essential element of the statute Vickers was charged with
violating. This court has held that evidence similar to what was presented in
this case is sufficient to establish the “interstate commerce” element of Section
922(g)(1). United States v. Dancy, 861 F.2d 77, 81 (5th Cir. 1988). To the extent
Vickers challenges the constitutionality of this section, this argument has been
foreclosed in this Circuit. Vickers has preserved the issue should that later be
relevant. See United States v. Daugherty, 264 F.3d 513, 518 (5th Cir. 2001).

C.

Armed Career Criminal Act enhancement
Vickers also challenges his sentence. The first issue is whether the district

court properly found him subject to the Armed Career Criminal Act (ACCA). See
18 U.S.C. § 924(e). The designation caused a fifteen-year mandatory minimum
sentence. An armed career criminal is a felon in possession of a firearm who has
three prior convictions for a “violent felony” or a “serious drug offense.” Id. For
a “serious drug offense” to qualify under the enhancement, it must also have a
possible sentence of ten years or more. 18 U.S.C. 924(e)(2)(A)(i).1
The district court found that three of Vickers’s prior convictions satisfied
these statutory requirements. Vickers does not challenge the findings on two of
the three convictions – murder and burglary of a habitation. However, he
alleges that the third conviction – delivery of a controlled substance – is not a
“serious drug offense” under the ACCA.
A “serious drug offense” under the ACCA is “an offense under State law,
involving manufacturing, distributing, or possessing with intent to manufacture
1

The parties do not dispute that Vickers’s prior drug conviction was a first degree
felony punishable by a maximum prison term of 99 years. Tex. Pen. Code Ann. § 12.32(a).
Therefore, that conviction meets the minimum penalty requirement of the ACCA.

8

Vickers v. United States
Petition Appendix

50a

Case: 07-10767

Document: 0051603883

Page: 9

Date Filed: 08/12/2008

No. 07-10767
or distribute, a controlled substance . . . for which a maximum term of
imprisonment of ten years or more is prescribed by law.”

18 U.S.C. §

924(e)(2)(ii). The Texas statute supporting Vickers’s conviction applied to a
person who “knowingly manufactures, delivers, or possesses with intent to
deliver” a controlled substance. Tex. Health & Safety Code Ann. § 481.112
(2003). The Texas statute defines delivery to include actual or constructive
transfer or “offering to sell” the substance. Tex. Health & Safety Code §
481.002(8) (2003).
We review application of the armed career criminal enhancement de novo.
United States v. Munoz, 150 F.3d 401, 419 (5th Cir. 1998). In determining
whether an offense satisfies the ACCA, a court is limited to “examining the
statutory definition, charging document, written plea agreement, transcript of
plea colloquy, and any explicit factual findings by the trial judge to which the
defendant assented.” Shepard v. United States, 544 U.S. 13, 16 (2005).
We have noted that the Texas statute could be violated by a range of
conduct between an offer to sell to actual delivery of a controlled substance. The
charging document and state court judgment do not inform us what Vickers was
accused of doing. The charging document states that Vickers
did knowingly and intentionally deliver, to-wit: actually transfer,
constructively transfer, and offer to sell a controlled substance, towit: COCAINE in an amount . . . of less than 28 grams, to CS
Shields.
The state court judgment adds no useful detail. It does not reflect whether the
judge found that Vickers: (1) actually transferred; (2) constructively transferred;
(3) offered to sell; or (4) offered to sell and then actually or constructively
transferred the cocaine. The Government concedes that conviction could be
based on any one of the alternatives. Therefore, nothing negates the possibility
that Vickers was convicted solely for offering to sell a controlled substance.

9

Vickers v. United States
Petition Appendix

51a

Case: 07-10767

Document: 0051603883

Page: 10

Date Filed: 08/12/2008

No. 07-10767
Vickers relies on a precedent in which the defendant was convicted of
reentry by a removed alien. United States v. Gonzales, 484 F.3d 712, 714 (5th
Cir.), cert. denied, 127 S. Ct. 3031 (2007). At sentencing, the Government sought
to enhance Gonzales’s sentence under the Sentencing Guidelines as a prior “drug
trafficking offense.”2 The ACCA was not discussed. The only relevance of
Gonzales is that the prior conviction was under the Texas statute that is at issue
here. We held that Gonzales’s conviction under the Texas statute for offering to
sell a controlled substance was not a “drug trafficking offense.”

For the

enhancement to be applicable, the offense must be one that “prohibits the
manufacture, import, export, distribution, or dispensing of a controlled
substance . . . or the possession of a controlled substance . . . with intent to
manufacture, import, export, distribute or dispense.” Id. at 715 n.1 (quoting
U.S.S.G. § 2L1.2, cmt. n.1(B)(iv)). Our question was whether an offer to sell
could be considered any of those actions. It could not be, and we found the
enhancement inapplicable. Gonzales, 484 F.3d at 716.
Unlike the Gonzales court, we are not faced with interpreting the “drug
trafficking” enhancement under the Sentencing Guidelines. Our interpretive
issues arise from the Armed Career Criminal Act. If the definition in the ACCA
of a “serious drug offense” were identical to the definition of a “drug trafficking
offense” in the Guidelines, then the Gonzales holding would be relevant. The
two definitions are not identical. The drug trafficking enhancement lists specific
convictions (e.g., manufacture, import) that support the enhancement. The
ACCA applies to convictions “involving manufacturing, distributing, or
possessing with intent to manufacture or distribute, a controlled substance . . .
.” 18 U.S.C. § 924(e)(2)(A)(ii) (emphasis added).

2

The Sentencing Guidelines (§ 2L1.2) provide for a 16-level enhancement for a
defendant convicted of unlawfully reentering the United States if the defendant has a prior
felony conviction for a “drug trafficking offense.”

10

Vickers v. United States
Petition Appendix

52a

Case: 07-10767

Document: 0051603883

Page: 11

Date Filed: 08/12/2008

No. 07-10767

The word “involving” is an exceedingly broad term for a statute. One of
our precedents has addressed this part of the ACCA. United States v. Winbush,
407 F.3d 703 (5th Cir. 2005). There, one of the underlying felonies justifying
imposition of the ACCA enhancement was a conviction for attempted possession
of cocaine with intent to distribute under a Louisiana statute. Id. at 704.
Winbush argued that the inchoate crime of attempt to possess did not qualify as
a “serious drug offense” to justify the ACCA enhancement. Id. at 705. The court
held that the inclusion of the word “involving” in the ACCA demonstrated that
Congress intended the category of convictions considered a “serious drug offense”
to be expansive:
[t]he word ‘involving’ has expansive connotations, and we think it
must be construed as extending the focus of § 924(e) beyond the
precise offenses of distributing, manufacturing, or possessing, and
as encompassing as well offenses that are related to or connected
with such conduct.
Id. at 707 (quoting United States v. King, 325 F.3d 110, 113 (2d Cir.), cert denied,
540 U.S. 920 (2003)). In Winbush, the court concluded that an attempted
possession of cocaine was of a type “involving” possession.
Vickers correctly points out that the Louisiana statute in Winbush is not
identical to the Texas delivery statute. The Louisiana attempt statute requires
a showing that the defendant took steps toward obtaining possession of the
controlled substance with the specific intent to commit the offense of possession
with intent to distribute. State v. Harris, 846 So. 2d 709, 713 (La. 2003). The
Texas delivery statute requires less: “The offense is complete when by words or
deed, a person knowingly or intentionally offers to sell what he states is a
controlled substance.” Stewart v. State, 718 S.W.2d 286, 288 (Tex. Crim. App.
1986). The intentional offer to sell a controlled substance is the crime; the
accused need not have any drugs to sell or even intend ever to obtain the drugs
11

Vickers v. United States
Petition Appendix

53a

Case: 07-10767

Document: 0051603883

Page: 12

Date Filed: 08/12/2008

No. 07-10767

he is purporting to sell. Francis v. State, 890 S.W.2d 510, 513 (Tex. App. 1994)
(statute requires neither possession nor actual/constructive transfer of a
controlled substance at the time of an offer to sell).
Despite the statutory differences, our issue is whether a Texas conviction
for offering to sell a controlled substance is one “involving” distribution of a
controlled substance under the ACCA. We begin with the presumption that
Congress “says in a statute what it means and means in a statute what it says
there.” Connecticut Nat’l Bank v. Germain, 503 U.S. 249, 253-54 (1992). The
plain meaning of the term “involving” means “related to or connected with.”
Winbush, 407 F.3d at 707 (quoting King, 325 F.3d at 113). The ACCA is
intended to cover those individuals whose prior convictions indicate an
“increased likelihood that the offender is the kind of person who might
deliberately point the gun and pull the trigger.” Begay v. United States, 128 S.
Ct. 1581, 1587 (2008). The expansiveness of the word “involving” supports that
Congress was bringing into the statute’s reach those who intentionally enter the
highly dangerous drug distribution world. Being in the drug marketplace as a
seller – even if, hypothetically, the individual did not possess any drugs at that
time – is the kind of self-identification as a potentially violent person that
Congress was reaching by the ACCA.
We have discussed that there is no evidence of how Vickers participated
in the drug marketplace. It is the nature of the jurisprudence surrounding some
sentencing enhancements based on prior convictions, when the details of those
prior convictions do not appear in usable documentation, to have to discuss
speculative possibilities. We find nothing illogical, unreasonable or unfair about
interpreting this part of the ACCA in its most straightforward way. The offenses
specified by the Texas statute – from the offer to sell, to attempted delivery, to
actual delivery – are all offenses which are “related to or connected with” the
12

Vickers v. United States
Petition Appendix

54a

Case: 07-10767

Document: 0051603883

Page: 13

Date Filed: 08/12/2008

No. 07-10767

distribution of drugs. Winbush, 407 F.3d at 707 (quoting King, 325 F.3d at 113).
Therefore, we hold that the district court did not err in concluding that Vickers’s
Texas conviction for delivery of a controlled substance was a “serious drug
offense” for purposes of the ACCA.3

D.

Sentence Reduction for Acceptance of Responsibility
Vickers’s final argument is that the district court erred in denying his

request for a reduction in sentence for acceptance of responsibility.

The

Sentencing Guidelines provide that if a defendant “clearly demonstrates
acceptance of responsibility” for the offense, his sentence can be reduced two
levels. U.S.S.G. § 3E1.1.

Because the district judge is well-positioned to

evaluate the appropriateness of a reduction in sentence based on acceptance of
responsibility, the standard to review a denial is extremely deferential. United
States v. Chapa-Garza, 62 F.3d 118, 122 (5th Cir. 1995).
Vickers argues that the district court erred in failing to find the following
to be decisive: (1) Vickers went to trial solely to preserve his ability to appeal
questions of law; (2) the defense presented no evidence at trial; (3) at trial
counsel only cross examined one of the Government’s witnesses; (4) Vickers
stipulated to the fact that he had previously been convicted of a felony; (5) in
closing argument counsel all but conceded guilt – by telling the jury Vickers was
proceeding to trial to preserve issues for appeal; and (6) Vickers pled guilty to

3

We recognize that this holding means that an offense could be found to satisfy the
ACCA requirements, while the same offense would not be sufficient to trigger an enhancement
under the Sentencing Guidelines. For example, in Gonzales as well as United States v. Price,
516 F.3d 285 (5th Cir. 2008), we held that “delivery” under this Texas statute does not
constitute either a “drug trafficking offense” (Gonzales) or a “controlled substance offense”
(Price) for sentencing purposes. These cases, however, are based on the specific language of
those two enhancements. Here we are faced with a statute whose language encompasses
offenses “involving” distribution – broad enough language to cover an offer to sell.

13

Vickers v. United States
Petition Appendix

55a

Case: 07-10767

Document: 0051603883

Page: 14

Date Filed: 08/12/2008

No. 07-10767

essentially the same crime in state court based on the same underlying events
– indicating an admission of guilt.
Vickers placed these same facts before the district court and the court
found them unconvincing. Vickers had rejected a conditional guilty plea offered
by the Government, put the Government to its burden of proof in a jury trial,
sought a judgment of acquittal pursuant to Federal Rule of Criminal Procedure
29, and in closing argument urged the jury to find that the Government had not
proven its case beyond a reasonable doubt. Based on this record we cannot find
that the district court abused its broad discretion in denying Vickers’s request
for a reduction in sentence for acceptance of responsibility.
AFFIRMED.

14

Vickers v. United States
Petition Appendix

56a

ORIGINAL

Case 3:06-cr-00229-B Document 52 Filed 07/11/07
""AO 2458

Page 1 of 7 PageID 165

(Rev. 12/03) Judgment in a Criminal Case
Sheet 1 TXND Mod - 09/28/04

UNITED STATES DISTRICT COURT
Northern

District of

UNITED STATES OF AMERICA

Texas - Dallas Division

JUDGMENT IN A CRIMINAL CASE

v.
Case Number: 3:06-CR-229-B(Ol)

MICHAEL DEWAYNE VICKERS

USM Number:35401-177
John M. Nicholson Assistant Federal Public D
Defendant's Attorney

THE DEFENDANT:

O.S. DlSTlUCT COi.JR£
NORTHERN DISTRICT OF TEXAS

FILED

D

pleaded guilty to count(s)

D

pleaded no lo contendere to count(s)
which was accepted by the court.

[2J was found guilty on count(s)

Count 1 of the Indictment filed on Jul 25, 2006.

after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

18 USC§§ 922(g)(l) & 924

Felon in Possession of a Firearm

Count

1

(e)(l)

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
D

----'6'--- of this judgment. The sentence is imposed pursuant to

The defendant has been found not guilty on count(s)

Ocount(s)._ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __ Dis Oare dismissed on the motion of the United States.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

July 5, 2007

oyle
te States District Judge
Name and Title of Judge

July 10, 2007
Date

18-10940.158

Vickers v. United States
Petition Appendix

57a

Case 3:06-cr-00229-B Document 52 Filed 07/11/07
AO 2458

Page 2 of 7 PageID 166

(Rev. 12/03) Judgment in Criminal Case
Sheet 2 - Imprisonment TXND Mod - 9/28/04
Judgment - Page __2..___ of

6

DEFENDANT: MICHAEL DEWAYNE VICKERS
CASE NUMBER: 3:06-CR-229-B(Ol)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker, and
considering the factors set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United States Bureau
of Prisons to be imprisoned for a total term of: ONE HUNDRED NINETY (190) MONTHS. However, the Court adjusts this term of
imprisonment to 168 months, pursuant to USSG § 5G1.3(b), to account for a 22-month period of imprisonment that will not be
credited by the Bureau of Prisons. (see attachment "A")

[{] The court makes the following recommendations to the Bureau of Prisons:
An FCI close to Dallas, Texas

[ZJ The defendant is remanded to the custody of the United States Marshal.

D

The defendant shall surrender to the United States Marshal for this district:

D
D

D

at

Oa.m.

op.m.

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

B
D

before - - - -on
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

to ___________________________________

Defendant delivered on

a-------------------------------~

with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

18-10940.159

Vickers v. United States
Petition Appendix

58a

Case 3:06-cr-00229-B Document 52 Filed 07/11/07

Page 3 of 7 PageID 167

ATTACHMENT "A"
3:06-CR-229-B
MICHAEL DEWAYNE VICKERS

"The Court finds that a term of imprisonment of 190 months is appropriate. However, the Court
adjusts this term of imprisonment to 168 months, pursuant to USSG § 5Gl.3(b), to account for a
22-month period of imprisonment that will not be credited by the Bureau of Prisons. The 22month adjustment fully accounts for the period of imprisonment that the defendant has already
served in state custody on the term of imprisonment imposed in state case # F-0556626, which is
for the same offense (i.e., "relevant conduct") to the instant offense of conviction. Also pursuant
to USSG § 5G l .3(b ), the 168-month term of imprisonment in this case is to run concurrently to
the remainder of any undischarged term of imprisonment imposed in state case# F-0556626."

18-10940.160

Vickers v. United States
Petition Appendix

59a

Case 3:06-cr-00229-B Document 52 Filed 07/11/07
AO 245B

Page 4 of 7 PageID 168

(Rev. 12/03) Judgment in a Criminal Case
Sheet 3 - Supervised Release
Judgment-Page _ _
3 _ of

6

DEFENDANT: MICHAEL DEWAYNE VICKERS
CASE NUMBER: 3:06-CR-229-B(Ol)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of:
THREE (3) YEARS

The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Pnsons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from an)' unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.

D
0
0

D
D

The above drug testing condition is suspended, based on the court's determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable.)
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check, if applicable.)
The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a
student, as directed by the probation officer. (Check, if applicable.)
The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with the
Schedule of Payments slieet of this judgment.

The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional conditions
on the attached page.

STAND ARD CONDITIONS OF SUPERVISION
I)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer and shall submit a truthful and complete written report within the first five days of
each month;

3)

the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

4)

the defendant shall support his or her dependents and meet other family responsibilities;

5)

the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;

6)

the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;

I 0)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;

11)

the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;

12)

the d~fe.ndant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
perm1ss1on of the court; and

13)

as directed by the probation officer, the defendant shall notify third parties ofrisks that may be occasioned by the defendant's criminal
record or ,Persona1 history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant s compliance with such notification requirement.

18-10940.161

Vickers v. United States
Petition Appendix

60a

AO 2458

Case 3:06-cr-00229-B Document 52 Filed 07/11/07
(Rev. 12/03) Judgment in a Criminal Case
Sheet 3C - Supervised Release

Page 5 of 7 PageID 169
Judgment-Page _ 4 _ of

6

DEFENDANT: MICHAEL DEWAYNE VICKERS
CASE NUMBER: 3:06-CR-229-B(Ol)

SPECIAL CONDITIONS OF SUPERVISION
The-defendant shall provide to the U.S. Probation Officer any requested financial information.

18-10940.162

Vickers v. United States
Petition Appendix

61a

AO 245B

Case
3:06-cr-00229-B Document 52 Filed 07/11/07
(Rev. 12/03) Judgment in a Criminal Case
Sheet 5 -

Criminal Monetary Penalties

Page 6 of 7 PageID 170

TXND Mod 2 - 09/28/04
Judgment -

DEFENDANT: MICHAEL DEWAYNE
CASE NUMBER: 3:06-CR-229-B(Ol)

5

Page

of

VICKERS

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
$ 100.00

TOTALS

D
D

Restitution

Fine
$ NIA

The determination of restitution is deferred until
after such determination.

- - -.

$

NIA

An Amended Judgment in a Criminal Case (AO 245C) will be entered

The defendant must make restitution (including community restitution), payable to the U.S. District Clerk to be disbursed to the
following payee(s) in the amount(s) listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U .S.C. § 3664(i), all non federal victims must be paid
before the United States is paid.

Name of Payee

Restitution Ordered

TOTALS

D
D

0

Priority or Percentage

$

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U .S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

0
D

the iotorn.i rnquITomonti.w•i .ed f0< the
the interest requirement for the

D

Iti I "I' 0

fine

rn•titution.

restitution is modified as follows:

18-10940.163

Vickers v. United States
Petition Appendix

62a

AO 2458

Case
3:06-cr-00229-B Document 52 Filed 07/11/07
(Rev. 12/03) Judgment in a Criminal Case
Sheet 6 -

Schedule of Payments

Page 7 of 7 PageID 171

TXND Mod I - 09/28/04
Judgment -

6

Page

of

6

DEFENDANT: MICHAEL DEWAYNE VICKERS
CAS~ NUMBER: 3:06-CR-229-B(Ol)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties are due as follows:
A

D

D
D
DD

Lump sum payment of$

D
D

not later than
in accordance

due immediately, balance due

LJ LJ LJ
C,

D,

, or
E, or

OF

below; or

DD, OF

B

Payment to begin immediately (may be combined with DC,

C

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

ED
F

!.ZJ

or

below); or

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or
Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or
Special instructions regarding the payment of criminal monetary penalties:

It is ordered that the defendant shall pay to the United States a special assessment of $100, for Count 1, which shall be
due immediately. Said special assessment shall be made to the Clerk, U.S. District Court.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate Financial
Responsibility Pro gram, are made to the U.S. District Clerk, 1100 Commerce Street, 14th Floor, Dallas, Texas 75242.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

D

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

D

D

D

The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States: See Sheet 6B.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

18-10940.164

Vickers v. United States
Petition Appendix

63a

Case: 18-10940

Document: 00515646402

Page: 1

Date Filed: 11/20/2020

United States Court of Appeals
for the Fifth Circuit
___________
No. 18-10940
___________
United States of America,
Plaintiff—Appellant,
versus
Michael Dewayne Vickers,
Defendant—Appellee.
______________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:15-CV-3912
______________________________
ORDER:
IT IS ORDERED that appellee’s unopposed motion to recall the
mandate issued in this case on November 17, 2020, is GRANTED.
IT IS FURTHER ORDERED that appellee’s unopposed motion
to stay the appeal in this court until February 19, 2021, is GRANTED.

___________________________
Stephen A. Higginson
United States Circuit Judge

Vickers v. United States
Petition Appendix

64a

